DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


    Audit of DHS' Corrective Action Plan
      Process for Financial Reporting 
-
                Report No. 2 





             Office of Audits

                            September 2006
                                                                        Ofice of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528


                                                                        Homeland 

                                                                        Security
                                          September 8,2006


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our oversight responsibility to promote economy, efficiency, and effectiveness within the
department.

This report is the second of a series of OIG performance audit reports intended to provide an
assessment of planned DHS corrective actions to improve internal control. Improving internal
control is a critical objective of the DHS Financial Accountability Act (Public Law 108-330). The
report is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents. We contracted with the independent
public accounting firm KPMG LLP to perform the audit. KPMG is responsible for the attached
auditor's report and the conclusions expressed in it.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contribute$ to the preparation of this
report.
                                    WKRichard L. Skinner
                                      Inspector General
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




July 7,2006


Mr. David Zavada
Assistant Inspector General for Audit
Department of Homeland Security
245 Murray Drive, SW Bldg. 410
Washington, DC 20258

Mr. David Norquist
Chief Financial Officer
Department of Homeland Security
245 Murray Drive, SW Bldg. 410
Washington, DC 20258


KPMG is pleased to submit this performance audit report related to the Department of Homeland
Security's (the Department's) corrective action plans developed to address the Financial
Management Oversight, Financial Reporting, Fund Balance with Treasury, and Actuarial Liabilities
material weaknesses at the Office of the Chief Financial Officer, United States Coast Guard, and
Immigration and Customs Enforcement components as reported in the Department's independent
auditors' report in the FY 2005 Performance and Accotlntability Report. This performance audit is
the second of a series of performance audits that the Department of Homeland Security Office of
Inspector General has engaged us to perform for fiscal year 2006. This performance audit is
designed to meet the objectives identified in the Background, Objectives, and Scope section of this
report.
We conducted our second performance audit from June 12, 2006 through July 7, 2006, in
accordance with Government Auditing Standards issued by the Comptroller General of the United
States. The purpose of this report is to communicate the results of our performance audit and the
related findings and recommendations. Management concurred with our recommendations and
prepared a response which is presented at the end of this report.
Since July 7, 2006, we have not performed any additional procedures with respect to this
performance audit and have no obligation to update this report or to revise the information
contained herein to reflect events occurring subsequent to July 7,2006.
The Department of Homeland Security Office of Inspector General has authorized this report to be
sent electronically for the convenience of the Department. However, only the final hard-copy report
should be deemed our work product.




                                I<PII.iG LLP, a u S !,ai1-0 ivabllly p6ilnlisillp ti Ins U S
                                maq,bei ilrm uCKP!.!G ;?lern.i!lonal a S ~ s rooysinl~ve
                                                                                 s
Executive Summary
Overall, the Department of Homeland Security (the Department) is working to identify and develop
effective Corrective Action Plans (CAPs) to address the four material weaknesses at the Office of
the Chief Financial Officer (OCFO), United States Coast Guard (Coast Guard), and Immigration
and Customs Enforcement (ICE) over Financial Management Oversight, Financial Reporting, Fund
Balance with Treasury, and Actuarial Liabilities (herein referred to as the "material weaknesses"),
as reported in the Department's independent auditors' report included in the FY 2005 Performance
and Accountability Report (herein referred to as the "FY 2005 independent auditors' report"). The
OCFO, Coast Guard, and ICE have drafted CAPs intended to address their respective sections of the
material weaknesses. The Department deems these CAPs as critical steps towards its objective of
obtaining an unqualified audit opinion on its consolidated financial statements, as well as on its
internal controls over financial reporting. Our performance audit was limited to a review of the
CAPs themselves and not the outcomes achieved as a result of the execution of the procedures
outlined in the CAPs.


Findings and Recommendations
KPMG identified several opportunities for management's consideration to improve the
effectiveness of the Department's CAPs. KPMG has classified each of these observations into one
of the following four broad categories representing phases which are generally performed to
develop and implement an effective CAP:
    Identification of the underlying root cause,
    Development of an effective remediation plan,
    Accountabilitv for establishment and successful implementation of the CAP, and
    Validation of the successhl implementation of the CAP.
The recommendations needed, which we identified in relation to the CAPs for these material
weaknesses, vary depending on the component, and in some cases on the material weakness itself.
Background, Objectives, and Scope
Background
Office of Management and Budget (OMB) Circular A-123, Management's Responsibility for
Internal Control, states "Federal agencies are subject to numerous legislative and regulatory
requirements that promote and support effective internal control. Effective internal control is a key
factor in achieving agency missions and program results through improved accountability.
Identifying internal control weaknesses and taking related corrective actions are critically important
to creating and maintaining a strong internal control infrastructure that supports the achievement of
agency objectives."
OMB Circular A-123 builds upon the internal control framework within the Standards for Internal
Control in the Federal Government (Green Book), issued by the Government Accountability Office
(GAO), which defines internal control as "an integral component of an organization's management
that provides reasonable assurance that the following objectives are being achieved:
            effectiveness and efficiency of operations,
            reliability of financial reporting, and
            compliance with applicable laws and regulations."
Ten material weaknesses associated with internal controls were reported in the Department's
independent auditors' report included in the FY 2005 Performance and Accountability Report. The
Department has undertaken an initiative to develop and implement a formal corrective action plan
process. Under this initiative, the Department issued various guidance and also deployed a web-
based software application, Electronic Program Management Office (ePMO), to manage the
collection and reporting of CAP information for the Department and its components. Under this
initiative, the Department's intent is to develop effective CAPs and position itself to move forward
in its objective of obtaining an unqualified audit opinion on its consolidated financial statements, as
well as on its internal controls over financial reporting.
The first key milestone in the Department's CAP process was May 31, 2006, whereby all
components were required to develop CAPs for each material weakness under the new format for
input into ePMO by the Department's OCFO. The second key milestone will be the submission of
revised CAPs as of June 30,2006, by July 12,2006. The revised CAPs are outside the scope of this
performance audit.


Objectives
The objective of this performance audit is to report and evaluate the status and effectiveness of the
CAPs for four of the ten material weaknesses that the Department has identified as their areas of
CAP focus for FY 2006. The four material weaknesses are: Financial Management Oversight,
Financial Reporting, Fund Balance with Treasury, and Actuarial Liabilities. Our audit was
conducted in accordance with Government Auditing Standards issued by the Comptroller General
of the United States, specifically, the standards for performance audits.
Our objective is to report on the status of CAP implementation, as of May 31, 2006, and evaluate
the effectiveness of the Department's CAPs developed by the OCFO, Coast Guard, and ICE to
address their respective sections of the four material weaknesses.
Scope
The scope of this performance audit includes the Department's CAPs, as of May 31, 2006,
developed to address the Financial Management Oversight, Financial Reporting, Fund Balance with
Treasury, and Actuarial Liabilities material weaknesses at the OCFO, Coast Guard, and ICE
components as reported in the FY 2005 independent auditors' report. Our scope did not include
procedures on any of the CAPS associated with the remaining six material weaknesses cited in the
Department's FY 2005 independent auditors' report.
The Department is in the early stages of its CAP development and implementation process, and
accordingly, management has represented that its CAPS will continue to be modified throughout the
year. Our performance audit was limited to a review of the CAPS noted above as of May 3 1, 2006.
Revised CAPs as of June 30,2006, due by July 12, 2006, to the OCFO are outside the scope of this
performance audit. Furthermore, our performance audit was limited to a review of the CAPs
themselves and not the outcome being achieved as a result of the procedures outlined in the CAPs.
The timeline for this performance audit was as follows:
    FieldworkIReporting - June 12,2006 through July 7,2006
    Draft Report - July 17,2006
    Final Report - September 6,2006


Performance Audit Approach
We performed a variety of performance audit procedures over the CAPs for the four material
weaknesses. Our methodology consisted of the following four-phased approach:


Phase I - Project Initiation and Planning
To initiate and focus the performance audit approach, we conducted a kick-off meeting with the
Department's OIG, OCFO, Coast Guard, and ICE components to review the objectives, scope of the
project, and the collaboration among participants.


Phase I1 - Determine the CAP Status of the Four Material Weaknesses
    OCFO, Coast Guard and ICE Interviews
   We interviewed personnel from the OCFO, Coast Guard and ICE components on their
   understanding and implementation of their respective components' CAPs as of May 31, 2006,
   including, but not limited to, the root cause analysis performed, the critical milestones chosen
   for measurement, and mechanisms to monitor progress in meeting the milestones.
    CAPs and Related Supporting Documentation Reviews
    -   The CAPs (i.e., the detail and summary report) contained within ePMO.
    -   The underlying Excel and Word templates submitted to the Department's OCFO to
        populate ePMO.
    -   If applicable, the CAPS prepared prior to the implementation of the Department's fiscal
        year 2006 CAP process (i.e. ICE Financial Action Plans (FAPS)).
    -   Notice of Findings and Recommendations (NFRs) issued during the fiscal year 2005
        financial statement audit utilized to generate the FY 2005 independent auditors' report.


Phase 111- Evaluate CAP Effectiveness
We reviewed the DHS Corrective Action Plan Process Guide (CAP Guide), dated April 28, 2006,
and existing internal control monitoring practices and guidance for practices that would serve as our
evaluation criteria. We then compared our understanding of the Department's existing CAPS to
these practices to identify potential areas for improvement. These findings reflect situations that
could negatively impact the Department's remediation of the material weaknesses if additional
corrective action is not taken.
The internal control monitoring practices and guidance we reviewed included:
    OMB Circular A-123.
    CAP guides published by other Federal agencies.
    OMB Executive Branch Management Scorecard.
We categorized the areas for improvement into one of the four broad phases generally found in an
effective CAP process:
    Identification of the underlying root cause is an important action step in the CAP process.
    Accurate identification of the root cause mitigates the chances of recurrence. Often merely the
    symptoms of the deficiency are identified rather than the root cause. By identifying only the
    symptoms, it is difficult to develop an effective CAP that will successfully resolve the
    deficiency.
    Development of an effective remediation plan is an appropriate way to cure an internal control
    deficiency. A key component of an effective plan is the inclusion of both attainable and
    measurable milestones to allow both the Department and the component to effectively monitor
    the remediation process.
    Accountability is vital to the CAP process because it necessitates the establishment of an
    individual CAP owner who is responsible for its successful implementation. The owner's
    responsibilities include ensuring that milestones are achieved and that the validation phase is
    completed.
    Validation is important in order to verify that the CAP has been successfully completed. The
    CAP should include activities that will provide evidence to support the closure of the CAP.
    These activities should include documentation reviews, work observations, and performance
    testing.


Phase IV - Conclusions and Recommendations
After conducting our analysis in Phase 111, we formulated our findings and recommendations for
each potential area of improvement identified.
Findings and Recommendations
Office of the Chief Financial Officer (OCFO)
The OCFO has drafted CAPS intended to address its respective sections of the two material
weaknesses on Financial Management Oversight and Financial Reporting reported in the FY 2005
independent auditors' report.
Financial Management Oversight
Background:
The Financial Management Oversight material weakness relates to the overall management,
personnel, and infrastructure of the OCFO. The OCFO initiated the Department-wide CAP process
in early 2006. A crucial step in remediation of this material weakness was the successful
confirmation by the U.S. Senate of the Department's Chief Financial Officer in May 2006. As part
of the CAP process, the OCFO has led the Department in drafting guidance and providing the DHS
components with tools to utilize during their respective CAP implementations. The OCFO has led
'CAP Workshops' with representatives from the Department components so that an adequate,
uniform approach to performing root cause analyses and implementing corrective actions is taken
Department-wide. The OCFO also developed the Electronic Program Management Office (ePMO)
system enabling the Department and the components to track the corrective actions being
undertaken at the component level to ensure a coordinated Department-wide response to auditor
findings and recommendations. The OCFO has issued a CAP Guide and is currently in the
developmental stages of creating an Internal Controls over Financial Reporting (ICOFR) Playbook
for the components. Furthermore, these actions reflect the OCFO's recognition that the CAP
process at DHS is an integral part of its preparation for OMB A-123 implementation.
The leadership provided by the Department in setting a positive 'tone-at-the-top,' and actively
monitoring progress in implementing the CAP process has shown to be integral to the success
achieved at the Department thus far and will be critical to resolving the material weaknesses at the
Department.
Identification:
The OCFO has drafted a CAP to address the material weakness on Financial Management
Oversight, as it relates to the OCFO. The CAP includes an analysis of root cause issues, key success
factors and performance measures, resources required, and an analysis of the risks and impediments
as seen by management. In addition, management has developed a timetable for corrective actions,
and assigned specific tasks with due dates to individuals. Management emphasizes the evolutionary
nature of the CAP, including their intent to modify andlor add actions as needed to fully correct the
identified internal control weaknesses in financial management oversight, within the timetable
specified by Department leadership (September 30, 2006). As the work progresses, management
may identify additional root causes and will update the CAP accordingly in order to keep the CAP
current and a useful management plan.
One of the key inputs used by the Department in the development of the OCFO CAP addressing the
Financial Management Oversight internal control weaknesses was a self assessment using the GAO
Internal Control Management and Evaluation Tool (GAO Evaluation Tool). Completion of a self
assessment using the GAO Evaluation Tool was a Departmental mandate to support compliance
with the Department of Homeland Security Financial Accountability Act, the Federal Managers'
Financial Integrity Act (FMFIA), and implementation of OMB Circular A-123, Management's
Responsibility for Internal Controls in FY 2006.
The OCFO, under the direction of the Acting Chief Financial Officer (CFO), began its self
assessment of its control environment in FY 2006, and completed a thorough introspective review
over several months. Department management views the control environment as the foundation for
good financial management.
The GAO Evaluation Tool is intended to help managers determine how well the Department's
control environment is designed and fbnctioning and to help identify and develop actions to
improve internal controls. Many of the financial management oversight weaknesses, as highlighted
in the FY 2005 independent auditors' report, are synonymous with weaknesses in the overall control
environment, and consequently, the GAO Evaluation Tool provided a starting point for
identification and analysis of the root causes of the weakness.
The OCFO concluded that only two of the seven control environment objectives from the GAO
Evaluation Tool are fully met by the Department. Commitment to competence, management
philosophy, organizational structure, assignment of responsibilities and human resource practices
are aspects of the control environment that require improvement. This self-assessment served as the
Department's principle source of information to identify the root cause of the OCFO's contribution
to the material weakness on financial management oversight and as input to the CAP. By itself,
however, completion of the GAO Evaluation Tool does not substitute for a comprehensive root
cause analysis.
Development:
Using the information gathered through the self-assessment, the OCFO prepared its CAP to address
weaknesses in the control environment. The CAP is in the early stages of development and
approval, yet several significant steps have already been taken. One such step is the drafting and
release of the CAP Guide, and a formal process of reporting and monitoring (using ePMO) of
corrective actions planned by the Department and its components. Another recent action is
management's approval to initiate a workforce study to identi% human resource gaps and skill sets
needed to perform the financial reporting functions of the OCFO.
The initial draft of the CAP, based on the results of the self assessment of the control environment,
including the assigned tasks and timetable for completion, was recently completed - within the past
45 days. Management will require more time to hlly develop all of the corrective tasks and critical
milestones; specifically, further developing certain missing elements (described below), to make the
plan comprehensive. Until management addresses the missing elements, the effectiveness of the
CAP is diminished.
The OCFO also sponsors periodic "CAP Workshops" attended by the Department's components, to
help ensure continued progress is made in regards to CAPs throughout the Department. In addition,
the OCFO is developing an Internal Control Over Financial Reporting (ICOFR) Playbook which,
when completed, is intended to link the component CAPs to management's implementation of
OMB A-123 and ultimately with management's assertions related to internal controls over financial
reporting.
The OCFO presented us with several updates, not yet incorporated into the CAP, that are currently
under development and review by Department leadership, which partially address some of our
findings presented below:
   The Department has a limited number of employees, with necessary skill sets, particularly in
   OCFO financial management positions, which causes the current managers to prioritize
   workload, and postpone or defer work on critical projects such as policies, procedures, internal
   control improvements, etc. As a result, management has hired three full-time employees in
   fiscal year 2006 and has budgeted for an additional 13 full time equivalents over the next two
   years. In addition, management has identified the need for an organizational staffing and
   human resource needs study. A summary level document of the objectives for such a study has
   been prepared and approval for further development and engagement of a contractor to perform
   the study was recently obtained from the Department's Deputy CFO. Management, however,
   has not yet hlly developed and documented a detailed approach to the organizational needs
   assessment in the CAP, or prepared a Statement of Work, or engaged a contractor with the
   necessary expertise.
   The Department must overcome organizational structure issues that may impede the
   effectiveness of the Department's CFO and those in the OCFO for two primary reasons: (1)
   since its inception, the Department has operated under a matrix management philosophy
   Istmcture, with Chief (e.g., CFO, Chief Information Officer, Chief Procurement Officer, etc...)
   management and administrative responsibilities that cross-cut component operation at a
   Department level. Historically, the Department's CFO has seldom exercised his authority to
   implement policy and procedures, including, and most importantly, financial reporting controls
   across the Department.
   The CAP does not include a review of position descriptions for all current OCFO management
   and staff, to identify corrective actions necessary to better align job responsibilities with
   available human resources. In addition, the CAP does not address the linkage of annual goal
   setting and performance appraisals for managers and staff in the OCFO with specific OCFO
   objectives, e.g., implementation of CAPS, improvement in internal controls, etc.
   The Department has identified the need for an additional senior management official in the area
   of financial management,, however, a CAP has not been developed to include steps to actively
   recruit for this position (e.g., posting the job announcement or advertising I interviewing for the
   position).
   The CAP lacks procedures to identify weaknesses in management and staff training
   requirements. For example, the training programs attended by managers and staff have not been
   identified based on a critical needs and core competency assessment of training programs to
   improve essential skills.
   Clear internal reporting relationships within the Department have not been established, defining
   OCFO and component responsibilities for CAP development and implementation especially in
   areas of overlap.
Accountability:
Until the matters mentioned above are fully developed and addressed, key areas of authority and
responsibility for the CAP implementation cannot be adequately defined and communicated
throughout the Department, especially as they relate to the interaction between the OCFO and
component financial and reporting operations. The assignment of accountability for improvements
has occurred, but due to the pace of CAP development the improvements brought about by the
assignment have yet to take full effect.
Financial Reporting
Background:
The Financial Reporting material weakness is focused specifically on the reliability and timeliness
of the interim and year-end consolidated financial statements. The OCFO, and in particular the
financial reporting functions, have undergone substantial change in FY 2006, due to staff turnover,
restructuring of the office, and a reallocation of roles and responsibilities. The OCFO lost one key
manager to an internal transfer in FY 2006. The office was restructured into four functional areas
each lead by a Director - Financial Reporting, Financial Systems and Administration, Policy, and
Internal Control. Three staff personnel have been hired to fill vacancies identified at the beginning
of the year, which has helped with the distribution of workload. However, some accounting
personnel vacancies still remain, and management asserts that at least one key managerial position
remains unfilled. To supplement expertise and distribute workload, the OCFO has hired an outside
contractor to assist with the preparation of periodic financial statements and the FY 2006
Performance and Accountability Report, and performance of CAPs. The Policy branch is in the
very early stages of development, e.g., has a target date of August 2006, for issuance of its own
Charter and assignments to working group members.
Identification:
Upon review of the financial reporting CAP, we observed an analysis of root cause issues, key
success factors and performance measures, resources required, and an analysis of the risks and
impediments as seen by management. However, as explained below, the CAP is a mixture of typical
financial reporting roles and responsibilities and corrective actions. It is not clearly written to focus
on the information necessary to identify root causes, detailed listings of task, and assignments of
responsibility that will ultimately lead to the correction of the Financial Reporting material
weakness. The CAP is designed to accommodate periodic updates/modifications as necessary to
keep the CAP current and a useful management plan. As the work progresses, management may
identify additional root causes and will update accordingly.
Management's root cause analysis, conducted in FY 2006, shows that many of the conditions
identified and reported by the independent auditor stem from challenges associated with the set-up
of a new Federal department. Staffing decisions, allocation of limited resources, the need for new
policies and procedures, internal controls, integration of financial processes and systems, to name a
few conditions noted in the FY 2005 independent auditors' report, are typically multi-year projects
to set-up organizations the size of the Department.
Development:
When the OCFO completes its identification of the underlying root causes of the financial reporting
weakness, including management's response to the findings noted above, CAPs will need to be
developed and implemented, together with specific milestones and assignment tasks and oversight
to individuals.
The development and implementation of the CAP tasks have not been coordinated with the CAPs
from the other Department components or with the Department's OMB Circular A-123
implementation - two closely related aspects of financial reporting and internal control
improvements.
Since the CAP was only recently drafted and management has not had enough time to fully and
completely identify and develop the CAP tasks, we noted several critical elements missing from the
CAP that should be considered for inclusion. Without the addition of the critical missing elements
(described below), the plan is not comprehensive, which could diminish the ultimate effectiveness
of the CAP. In some cases, the OCFO was able to demonstrate that the missing elements are
dependent on the outcome of the Financial Management Oversight CAP, e.g., organizational and
workforce study, and consequently there is a natural lag in the identification and development of the
Financial Reporting CAP. The critical missing elements are as follows:
   The list of critical milestones and detailed tasks in the CAP are not comprehensive, and do not
   clearly show linkage to the weaknesses being corrected or the root cause issues. For example,
   management's root cause analysis indicates that OFM roles and responsibilities are not clearly
   defined, including insufficient back-up role planning. It is not clear which, if any, of the detailed
   tasks will address this issue.
    Many of the tasks listed in the CAP appear to be ordinary, routine responsibilities of the OCFO,
    rather than tasks meant to investigate and correct the root cause issues (i.e., "compile a hard-
    close June 30, 2006 PAR Section 3," "compile MD&A Section of the PAR," and to "compile
    September 30 financial statements"). All of these tasks are normal operational responsibilities
    of the OCFO and are not corrective actions. In addition, a disproportionate number of tasks
    appear to be administrative tasks that are not substantial actions to correct issues (i.e., "establish
    Department FMPIP subcommittee of working groups to evaluate policy and directives (an
    action with a due date of June 15, 2006, and labeled as "not started")).
    The CAP lacks procedures to identify the root cause underlying the reason why polices and
    procedures require excessive time to develop, approve and issue. In some cases, draft OCFO
    policies have been pending approval for more than a year - with no clear time-line for
    management approval and issuance. Despite the establishment of a Policy branch, no policies
    and procedures (by official Management Directive) have been issued in FY 2006. Policy
    issuance has been hindered by limited resources and a lack of coordination between the
    Department's operating components. For example, seven policies are in process but all have
    stalled or been held up from issuance, in some cases for more than a year.
Accountability:
We observed that the OCFO has hired a reputable outside contractor to assist with financial
reporting functions and CAP related tasks, as needed. However, as of May 31, 2006, the contractor
hired to support the OCFO is limited to only two full-time professionals, and consequently, is
dedicated to important, but narrowly focused, periodic financial reporting roles.
Implementation of the financial reporting CAP has been divided among several OCFO managers
who do not have sufficient time to commit to the project, and therefore must delegate most of the
tasks. Accountability for the financial reporting CAP is not clearly defined or tracked. Further, the
financial reporting CAP is not managed or monitored by a senior executive, and other priorities of
the OCFO have slowed progress. These conditions appear to have slowed progress - only 9 of the
55 tasks are shown as complete (many of which are routine operations or administrative functions
as mentioned above).


Recommendations
OCFO - Financial Management Oversight
We recommend that:
1. 	 Corrective actions be added to the CAP to identify weaknesses in management and staff
     training policies, and to then develop and document corrective actions in the CAP.
2. 	 Management should engage an outside independent contractor that specializes in this subject
     matter to perform its recently approved organizational workforce and human resource needs
     study. When the study is complete, CAPS will need to be developed and implemented, together
     with specific milestones and assignment of tasks and accountability to individuals. The study
     should provide management with:
       A critical assessment of the knowledge, skills, and abilities needed to perform the functions
       of the OCFO, and identify technical and experience gaps, so that recruiting, hiring, training
       and role definition can be adjusted if necessary; and
       A review of position descriptions for all current OCFO management and staff, to identify
       corrective actions necessary to better align job responsibilities with skill sets and available
       human resources, and to clarify reporting responsibilities that overlap within the OCFO, and
       to make recommendations to better align annual goal setting and performance appraisals
       with OCFO objectives.
3. 	 The agency continue its recruitment of an additional senior manager who has extensive
     experience with department level consolidated financial reporting, to serve in a senior
     management position in the area of financial management (i.e., posting or advertising the job
     announcement, interviewing and hiring for the position).
4. 	 Define the exact criteria which will be used to ascertain when the corrective action has been
     successfully completed, as well as the method for testing against such criteria as part of OMB
     A-123 implementation steps (i.e. tests of design and tests of operating effectiveness of internal
     controls). Additionally, integrate the CAPs with the OCFO's plan for OMB A-123
     implementation and annual FMFIA assurance statement. Management's plan for validation of
     corrective actions should be closely integrated with their controls test work conducted to
     comply with OMB A-123.


OCFO - Financial Reporting
We recommend that management:
5. 	 Identify a list of detailed tasks and critical milestones in the CAP to identify the root causes of
     the material weakness. When the OCFO completes its identification of the underlying root
     cause of the financial reporting weakness, including management's response to the conditions
     noted in the FY 2005 independent auditors' report, management should develop and implement
     CAPs that include specific milestones and assignment of tasks and oversight to appropriate
     individuals.
6. 	 Amend the CAP to include only root cause investigation, or corrective actions, designed to
     mitigate or eliminate the financial reporting material weakness. Ordinary, routine,
     responsibilities of the OCFO, such as "compiling September 30 financial statements", should be
     removed as they are not corrective actions developed in response to a root cause analysis.
7. 	 Include procedures in the CAP to assess the reasonableness of the time to develop, approve and
     issue appropriate corrective actions regarding policies and procedures. This recommendation
     may be dependent on the outcome of improvements to the control environment, discussed
     previously.
8. 	 Coordinate the development and implementation of the CAP tasks with the corrective actions
     from the other Department components and with the Department's OMB Circular A-123
     implementation.
9. 	 Assign the implementation of the financial reporting CAP to a manager who is principally
     responsible and accountable for fulfillment of the CAP. Presently, the tasks are split between
     managers who may not have sufficient time to commit to the project, and are delegating most of
     the tasks. Management should clearly define and track accountability. In addition, a senior
     executive should routinely monitor and manage the progress on the financial reporting CAP.
10. Define the exact criteria which will be used to ascertain when the corrective action has been
    successfully completed, as well as the method for testing against such criteria as part of OMB
    A-123 implementation steps (i.e. tests of design and tests of operating effectiveness of internal
    controls). Additionally, integrate the CAPs with the OCFO's plan for OMB A-123
    implementation and annual FMFIA assurance statement. Management's plan for validation of
    corrective actions should be closely integrated with their controls test work conducted to
    comply with OMB A-123.


United States Coast Guard (Coast Guard)
The Coast Guard has drafted CAPs intended to address its respective sections of the four material
weaknesses on Financial Management Oversight, Financial Reporting, Fund Balance with Treasury,
and Actuarial Liabilities, reported in the FY 2005 independent auditors' report.
Background:
The CAPs contain a description of the known issues and root causes, management's key success
factors and performance measures, general resources required, and in some cases, time milestones
for corrective actions. It is acknowledged that the Coast Guard has attended a CAP workshop
sponsored by the OCFO on June 26, 2006, where the CAP approach, future actions and milestones
were discussed. Additionally, the Coast Guard was instrumental in assisting the Department in the
ePMO pilot implementation.


The CAPs for the four material weaknesses consist primarily OF known conditions, previously
identified by the financial statement auditors, and lack evidence of a detailed review to identify the
underlying root cause of the four material weaknesses.
In order to develop a meaningful actionable CAP that includes identification of resource needs,
milestones, performance indicators and accountability, the root cause(s) of the issue must be
determined. As written, the CAPs do not extend beyond a general discussion of the problems or
approach to correction, and the underlying causes of the conditions are not described in sufficient
detail to allow development of specific actions and milestones. For example, the Coast Guard cites a
lack of investment in 	personnelttraining as a root cause in the Financial Management Oversight
CAP. However, the CAP does not contain any further analysis of personnel deficiencies - such as
which positions, roles and responsibilities, processes, locations, number of personnel, etc.
Consequently, the associated action plan is limited to a general statement that "adequate personnel
and financial resources must be made available in order to address root-cause issues and help ensure
long-term sustainable success."
The causes that have been identified have not been categorized, cross-referenced to problems
identified by management, and prioritized for correction. In addition, the CAPs lack specific
identification of financial systems and processes that require corrective actions, and an approach to
correction.
Likewise, the key success factors and performance measures identified consist primarily of an array
of policies and procedures typically found in a reliable financial reporting process, without specific
application to the Coast Guard financial reporting systems and processes. In some cases, possible
corrective actions have been deferred, pending hrther review to identify issues and develop a full
CAP at a future date. For example, the Financial Management Oversight CAP contains a critical
milestone of "not later than February 15, 2007, issue report from the financial management
transformation team containing a comprehensive, integrated plan and milestones.. ." The CAP is a
plan to develop a plan, and is, therefore, incomplete, and would be ineffective without further
development.
The CAPs focus almost exclusively on audit finding recommendations categorized by material
weakness in outline format with columns displaying status, percent complete, due date and
individuals responsible for action. However, the reports do not contain a rationale for the due date,
the detail steps planned or executed or how percentage of completion was determined or tested.
The CAPs are incomplete as they only include audit recommendations which are only a small
fraction of the total number of issues or root causes that Coast Guard must identify and address. The
high level root causes identified in the CAPs appear to be the initial steps in that effort.
In addition, the CAPs contain errors. For example, the resources required to correct Fund Balance
with Treasury and Financial Reporting material weaknesses are identical, and the auditor
recommendations in the CAP do not match the auditors' recommendation in the FY 2005
independent auditors' report.
Development and Accountability:
Financial Management Oversight
Management has identified four broad categories of issues that cause the Financial Management
Oversight material weakness; (1) personnel I training, (2) organization, (3) [financial] systems, and
(4) [personnel and budget] resources. The CAP, as written, is evidence that management recognizes
the deep-rooted structural (organization, personnel and system) issues, and that full correction is a
multi-year effort, and that a restructuring of the Coast Guard's financial management function may
be needed to realign financial reporting processes with the optimal mix of civilian vs. military and
centralized vs. decentralized responsibilities. In addition, the Coast Guard has vacant key financial
positions. The Financial Management Oversight CAP, which is currently under review by the Coast
Guard's interim CFO, calls for the creation of a "Financial Management Transformation Team,"
and for a "comprehensive, integrated plan of action and milestones..." by February 15, 2007. The
Financial Management Oversight CAP is therefore incomplete, pending further development as
planned by Coast Guard management.
Financial Reporting
The Financial Reporting CAP states that "There are many errors within the general ledger posting
logic. Most of these are due to inherent systems' deficiencies.. ." However, it is not clear from the
Financial Reporting CAP what steps will be taken to investigate these systems issues or when
management expects to have the problem(s) resolved. In addition to financial systems problems, the
Financial Reporting CAP identifies many hndamental I structural issues that are preventing the
Coast Guard from preparing reliable financial data for submission to the OCFO, e.g., lack of
policies, procedures, controls, personnel, training, inefficient and error prone processes. The
Financial Reporting CAP lacks a detailed listing of tasks to investigate these fundamental issues,
identify the root cause, and then develop corrective actions and assign responsibilities. Regarding
resource requirements, management's assessment of the resources required to investigate and
resolve these issues is limited to five staff (GS-12) personnel and unspecified funding for
"modifications to the Core Accounting System". Yet full implementation of an auditor
recommendation to "conduct an assessment of the current financial reporting process, including a
review of the three general ledger systems.. ." will require the commitment of considerably more
experienced supervisors, as well as expert systems personnel and/or contractors for identification
and correction of posting logic problems.
Fund Balance with Treasury
Management has identified a number of issues that led to the material weakness in Fund Balance
with Treasury accounts. Some issues appear to identify potential root causes, such as
"cumbersome/complex systems and processes and poor process design and systems integration".
However, most of the issues are symptomatic in nature, i.e., "inability to provide audit
disbursement, collection, and adjustment populations, number of suspense transactions is excessive,
missing some signed backup obligation documents," etc. The Fund Balance with Treasury CAP
lacks evidence of a detailed investigation to identify the root cause and then to develop specific
corrective actions. Further, the extent of IT system deficiencies that may be causing or contributing
to the material weakness is not clear in the Fund Balance with Treasury CAP. Some steps could be
taken immediately to improve the reliability of the Fund Balance with Treasury account balances.
However, the Fund Balance with Treasury CAP lacks a separation of short and long term actions
and a time-line for correction.
Actuarial Liabilities
The CAP includes a description of the underlying issues causing the material weakness in actuarial
liabilities, and the majority of the issues appear to be potential root causes, e.g.,
multiple/inadequate/non-unified financial accounting systems, weak program oversight
accountability, organizational structure, poor data integrity, etc. The due date for correction is
December 2007. The Actuarial Liabilities CAP lacks interim milestones to make / measure
incremental temporary improvements that will allow actuarial balances to be accurately stated in the
financial statements in FY 2006. The resources required do not address the cost for system
upgrades, reorganization, or process changes. For example, the Actuarial Liabilities CAP states that
it lacks "input from CG-842 (FINCEN) and CG-841 (IT systems)" and is therefore not fully
developed.


Overall, the CAPs for each of the four material weaknesses lack important details necessary to be an
effective plan. Specifically, we found that the Coast Guard CAPs lack:
Q   Linkage or cross-reference to the material weakness conditions being corrected. Presently, the
    CAPs refer generally to the group of auditor findings by area, and it is difficult to determine if
    all of the conditions identified by the auditor are adequately addressed in the CAP;
Q   Evidence of review and approval by management, together with a description of periodic
    progress reports to be provided to Coast Guard and OCFO management on progress;
    A fully developed / detailed listing of the tasks to be performed, and identification of system
    deficiencies and corrective actions and who is accountable for their completion;
    The detailed time-frame (milestones) that corrective actions are to occur, other than general
    months / years for a few actions, including the protocol of correction, e.g. systems before
    processes, etc.;
    Performance metrics / measures for use by management to determine that corrective actions are
    on track or require modification, and to assign accountability;
   A thorough evaluation of the resources needed - both personnel and funding, and the source of
   those resources once determined;
   Identification and dedication of resources including supervisors and contract assistance.
   Presently, everyone associated with the CAP process already has other full-time job
   responsibilities within the Coast Guard. The corrective actions are of a scale that dedicated
   personnel, including management, are necessary for the plan to be effective in the near-term;
   A description of how the Coast Guard will verify and validate that corrective actions are
   complete and effective in correcting the conditions that lead to material weaknesses; and
   Integration with the Coast Guard's OMB A-123 implementation process.


Recommendations:
We recommend that Coast Guard:
11. Perform a thorough root cause analysis to identify the underlying causes of the four material
    weaknesses, including a review of financial IT systems, processes and human resources. Coast
    Guard should not rely on the financial statement audit to identify all of the significant causes of
    control weaknesses, and should only use the audit to corroborate management's findings.
12. Develop CAPs to mitigate and ultimately correct control deficiencies, based on management's
    own assessment of the issues. The CAPs should include a description of the detailed tasks and
    milestones, key success and performance metrics, and a designated person who is primarily
    accountable for completion of the effort. The identified root causes should be cross-referenced
    to the weakness identified by management (as well as those identified by the financial statement
    auditor). The CAPs should be prioritized for correction, to minimize duplication of effort where
    corrective actions overlap (i.e., correction of IT system posting logic errors may resolve
    multiple issues, or mitigate the need for process changes).
13. Make a realistic assessment of the resource requirements, i.e., human and financial, needed to
    perform the investigations to identify the root causes of material weaknesses, develop and
    execute thorough CAPs, and then to verify correction. This assessment should include input
    from all affected areas, i.e., CG-842 (FINCEN) and CG-841 (IT systems). In filling key
    financial management vacancies, the Coast Guard should ensure that the position holders have
    the necessary skills and experience to successfully execute the CAPs.
14. Obtain support from executive leadership, since effective correction will at times compete with
    other mission priorities, and progress could falter without continuous reinforcement from
    leadership.
15. Define the exact criteria which will be used to ascertain when the corrective action has been
    successfully completed, as well as the method for testing against such criteria as part of OMB
    A-123 implementation steps (i.e. tests of design and tests of operating effectiveness of internal
    controls). Additionally, integrate the CAPs with the Coast Guard's plan for OMB A-123
    implementation and annual FMFIA assurance statement. Management's plan for validation of
    corrective actions should be closely integrated with their controls test work conducted to comply
    with OMB A-123.
Immigration and Customs Enforcement (ICE)
ICE has drafted CAPs intended to address their sections of the three material weaknesses on
Financial Management Oversight, Financial Reporting, and Fund Balance with Treasury, reported
in the FY 2005 independent auditors' report.
Background:
ICE established the Program Management Office (PMO), which reports to ICE'S CFO, to develop
and implement a three-year Financial Action Plan (FAP) to manage and monitor efforts to improve
ICE's financial management. The FAP addresses the material weaknesses as they relate to ICE
which includes the material weaknesses in Financial Management Oversight, Financial Reporting
and Fund Balance with Treasury.
In the establishment of the PMO, ICE contracted with a consulting firm to not only provide
expertise but also manpower. The primary responsibilities of the PMO are to (1) provide program
management infrastructure to ensure successful FAP execution, (2) provide guidance and support to
staff developing initiative project plans and implementing them, and (3) resolve issues and mitigate
risks that may hinder the FAP implementation effort. By February 2006, ICE issued its FAP and the
process of implementing the corrective actions was launched. Each initiative in the FAP is
supported by a Detailed Project Plan that outlines the tasks and milestones to be achieved.
When the Department initiated its Department-wide CAP process in April 2006, ICE was already in
the midst of its FAP implementation. In order to comply with the Department's CAP process, ICE
fashioned its CAPs based on the information in its existing FAP. These CAPS summarizing the FAP
initiatives were provided to the Department for uploading to the Department's ePMO database.
While the CAPS and the FAP are similar, the FAP contains information regarding ICE'S corrective
actions in much greater detail than the summary-level information provided in the CAPs. For
purposes of this performance audit, KPMG evaluated the corrective actions as detailed in ICE's
FAP and supporting documentation. However, the FAP data was also compared with the
information in ICE's CAPs within ePMO for consistency purposes.
The FAP includes an analysis of root cause issues, potential effects of the deficiency, corrective
actions and their foreseen impact. In addition, management has developed a timetable for corrective
actions, and assigned specific tasks with due dates to specific individuals.
When developing the FAP, ICE management indicated that it considered the FAP to be an
evolutionary document that would be periodically updated as needed to consider new facts and
circumstances, and to ensure continuous progress is made. Further, a decision was made to focus on
deploying ICE's resources on the area of Fund Balance with Treasury with the goal of resolving this
material weakness in FY 2006. Management decided that this measured, focused approach was the
best way to fully rectify the issue, as opposed to attempting to work on all deficiencies
simultaneously and spreading its resources too thin. While ICE wants to see positive progress in the
remediation for each of the material weaknesses, it has only committed to fully remediate the Fund
Balance with Treasury material weakness during FY 2006.
The leadership provided by the ICE CFO in setting a positive 'tone-at-the-top,' and actively
monitoring ICE's progress in implementing the FAP has shown to be integral to the success
achieved at ICE thus far. The ICE's CFO continued commitment to the FAP effort is instrumental
to resolving the material weaknesses at ICE.
Financial Management Oversight


Management has segregated the Financial Management Oversight material weakness into three
primary areas: Workforce Strategy, Financial Systems, and Management Oversight. When
developing the FAP, the PMO performed a root cause analysis which consisted primarily of
conducting interviews with personnel and leveraging institutional knowledge of the ICE personnel
in the PMO. The root cause analysis initially focused on the conditions cited by the auditors during
the FY 2005 audit. The PMO categorized Financial Management Oversight within the FAP into
two primary areas: Workforce Strategy and Financial Systems. Subsequent to the development of
the FAP, the PMO expanded its initial root cause analysis which resulted in Management Oversight
also being identified as one of three primary areas. To ensure that the FAP, at a minimum,
addressed each of the auditor findings cited during the FY 2005 audit, the FAP contains an
appendix which crosswalks each of the auditor findings to the task within each initiative designed to
correct the material weakness. Additionally, as the work progresses, management may identify
additional root causes and will update accordingly.
Development:
ICE developed and documented its corrective actions in a two-tiered approach. The first tier is the
FAP itself which is at the highest level and can be described as more of a summary level. Each
initiative within the FAP contains a brief background section as well as the following sections:
Cause, Effect, Corrective Actions, and Impact of Corrective Actions. Within the Corrective Actions
section, the primary tasks to be completed are listed along with a task description, milestone, and
estimated date of completion (month and year). The second tier is the Detailed Project Plan which is
at a more detailed level. The Detailed Project Plan contains the following sections: Project
Summary, Key Team Roles and Responsibilities, Business Issues and Challenges, Project Plan, and
Key Outputs. Within the Key Outputs section, the primary tasks to be completed are listed along
with the key output description and the estimated date of completion (month, day, and year).
The Project Plan, maintained in Microsoft Project, lists the primary tasks and the subtasks along
with the number of days the tasklsubtask should take to complete as well as the start date and the
end date for the tasklsubtask. The intent is that the FAP would be a static document while the
Detailed Project Plan and the accompanying Microsoft Project Plan would be updated as needed.
The information contained in the Corrective Action section of the FAP should be consistent with the
information in the Key Outputs section of the Detailed Project Plan which, in turn, should be
consistent with the Critical Milestones in the CAP within ePMO.
Upon comparison of the tasks/critical milestones and the corresponding due dates in the FAP, dated
February 2006; the Detailed Project Plan for Workforce Strategy and the Detailed Project Plan
Financial Systems, dated May 31, 2006 and April 18, 2006, respectively; and the CAP Detail
Report as of May 3 1, 2006 from ePMO; we noted a couple of minor inconsistencies (i.e., due dates,
description of tasks, and number of tasks) between the various documents. In addition, we noted
that the CAP within ePMO did not contain information on the Key Performance Measures, Risks
and Impediments, and Resources Required. All of the inconsistencies between the various
documents appear to be attributable to timing (i.e., the date each of the documents was prepared and
the frequency with which ePMO was updated).
ICE attended the Department's OCFO-sponsored CAP Workshop for Financial Management
Oversight where the corrective action approach, future actions and milestones were discussed. ICE
represented that the CAP Workshop was beneficial and provided ideas for revisions to its FAP. We
understand that revised CAPs are due to the Department by July 12, 2006. These CAPs are outside
the scope of this performance audit. ICE further represented that the revisions would not be
considered significant but would be adding specificity to the existing data (e.g., tasks and
milestones) and revising expected completion dates for select milestones, as well as providing
information for the sections of the CAP which were not previously submitted for input into ePMO.
Within the Management Oversight area, none of the taskslcritical milestones, with the exception of
the task to "Establish Financial Action Plan Program Management Office", is considered to have a
'true' completion date as the tasks are considered to be on-going. Other tasks lack exact criteria
which will be used to ascertain when the corrective action has been successfully completed, as well
as the method for testing against such criteria. Similarly, within Workforce Strategy, the PMO
represented that the success criteria and validation criteria cannot be determined until the Workforce
Transition Plan has been developed and implemented.
The PMO has established a FAP Executive Dashboard which is updated at least monthly to provide
a snapshot of the progress and status of each FAP Initiative. For each task/critical milestone within
each FAP Initiative, a color coding is used to identify whether the task is complete (blue), on track
(green), moderately delayed (yellow), significantly delayed (red) or not started (white). The FAP
Dashboard does not reflect and track the progress for the area of Management Oversight and most
of the tasks in this area are all considered to be on-going tasks as only one of the taskslcritical
milestones in this area has a 'true' completion date.
Of the ten and six tasks/critical milestones within the areas of Workforce Strategy and Financial
Systems, respectively, ICE indicated in its FAP Dashboard as of June 30, 2006, that five and one,
respectively, have been completed.
Accountability:
As previously mentioned, the PMO has established a FAP Executive Dashboard, which is updated
at least monthly and provides a snapshot of the progress and status of each FAP Initiative.
Additionally, the percentage of completion is presented at the overall FAP Initiative level.
For each material weakness initiative included in the FAP, an ICE initiative owner has been
assigned, as well as a PMO liaison. Additionally, ICE senior leadership also has a role in the FAP
initiative.
The PMO, in conjunction with the initiative owner, completed a resource template for each FAP
Initiative which identified the resource name, skill set needed by the resource, and the number of
hours per week by month for each resource. The resources were categorized as Executive Sponsor,
Initiative Owner, or Staff. We noted that the resource template included both ICE employees and
contracted personnel.
As represented to us by the PMO, the responsibility for reporting on the task status and
documenting evidence to support such status rests with the ICE initiative owner and not the PMO.
However, we were informed that the PMO is in the process of gathering such evidence for
completed tasks from each of the ICE initiative owners for its own records.


Financial Reporting


When developing the FAP, the PMO performed a root cause analysis which consisted primarily of
conducting interviews with personnel and leveraging the institutional knowledge of the ICE
personnel in the PMO. The root cause analysis initially focused on the conditions cited by the
auditors during the FY 2005 audit. The analysis performed by the PMO team resulted in two
categories being identified: Lack of Policies and Process Needs Improvement. To ensure that the
FAP, at a minimum, addressed each of the auditor findings cited during the FY 2005 audit, the FAP
contains an appendix which crosswalks each of the auditor findings to the task within each initiative
designed to correct the material weakness. Subsequent to the development of the FAP, the PMO
expanded its initial root cause analysis which resulted in additional causes being identified.
Development:
As previously discussed under the corresponding section under Financial Management Oversight,
ICE developed and documented its corrective actions in a two-tiered approach.
Upon comparison of the tasks/critical milestones and the corresponding due dates in the FAP, dated
February 2006, the Detailed Project Plan dated June 15, 2006, and the CAP Detail Report as of May
31, 2006 from ePMO, we noted a couple of minor inconsistencies (i.e., due dates, description of
tasks, and number of tasks) between the various documents. In addition, we noted that the CAP
within ePMO did not contain information on Key Performance Measures, Risks and Impediments,
and Resources Required. Furthermore, all of the inconsistencies between the various documents
appear to be attributable to timing (i.e., the date each of the documents was prepared and the
frequency with which ePMO was updated).
We understand that revised CAPs as of June 30, 2006, are due to the Department by July 12, 2006.
ICE represented that it would be submitting a revised CAP to the Department. These revised CAPs
are outside the scope of this performance audit. ICE further represented that the revisions would not
be considered significant but would be adding specificity to the existing data (i.e., tasks and
milestones) and revising expected completion dates for select milestones, as well as providing
information in the sections of the CAP that were not previously submitted for input into ePMO.
Abnormal balances, 'free-form' general journal entries, and accurate and timely submission of
financial reports are considered to be significant problem areas within Financial Reporting.
Although the PMO developed a metric to track and monitor the total amount and number of
abnormal balances over $1 million, as well as the categorization (i.e., researched transactions
causing abnormal balances, identified root cause, and identified datalprocess owner) of the amount
and number of these abnormal balances, we noted no such similar metric to monitor and track the
volume and reason of 'free-form' general journal entries. As such, it would appear that ICE w-ill be
relying on the occurrence of high-level (i.e., branch director) approval of 'free-form' general
entries, as required by the newly developed standard operating procedures, to test the success in this
area. Further, we noted no mechanism to track and monitor the volume and type of 'warning' errors
received upon submission of the monthly financial data into TIER. As such, it would appear that
ICE will be relying only on the fact that the monthly financial data is submitted to the Department
by its stipulated deadlines and that the financial data is accepted and processed in TIER without
'fatal' errors.
Of the eight tasks/critical milestones within Financial Reporting ICE indicated it its FAP Dashboard
as of June 30,2006, three tasks/critical milestones have been completed.
Based on the progress being made on the task related to the research and resolution of abnormal
balances, ICE updated the Detailed Project Plan for Financial Reporting on June 15,2006 which
extended the estimated completion dates for this task.
Lastly, ICE is scheduled to attend the Department's OCFO-sponsored CAP Workshop for Financial
Reporting on August 7,2006.
Accountability:
Refer to the corresponding section under Financial Management Oversight for a discussion of the
roles of personnel with ICE, the completion of resource templates, the responsibility for supporting
the progress made and the reporting of corrective action status via the FAP Dashboard.


Fund Balance with Treasury (FBWT)
Identification:
When developing the FAP, the PMO performed a root cause analysis which consisted primarily of
conducting interviews with personnel and leveraging the institutional knowledge of the ICE
personnel in the PMO. The root cause analysis initially focused on the conditions cited by the
auditors during the FY 2005 audit. The analysis performed by the PMO team resulted in three
categories being identified: Untimely Clearing and Recording of Items, Lack of Policies, and
Process Needs Improvement. The PMO categorized Fund Balance with Treasury within the FAP
into four primary areas as follows:
    Cash Reconciliation
   Statement of Differences
   Suspense
    Non-224 Transactions
To ensure that the FAP, at a minimum, addressed each of the auditor findings cited during the FY
2005 audit, the FAP contains an appendix which crosswalks each of the auditor findings to the task
within each initiative designed to correct the material weakness. Subsequent to the development of
the FAP, the PMO expanded its initial root cause analysis which resulted in additional causes being
identified. Additionally, as the work progresses management may identify additional root causes
and will update accordingly.
Development:
As previously discussed under the corresponding section under Financial Management Oversight,
ICE developed and documented its corrective actions in a two-tiered approach.
Upon comparison of the tasks/critical milestones and the corresponding due dates in the FAP, dated
February 2006, the Detailed Project Plan dated April 4, 2006, and the CAP Detail Report as of May
31, 2006 from ePMO, we noted a couple of minor inconsistencies (i.e., due dates, description of
tasks, and number of tasks) between the various documents. In addition, we noted that the CAP
within ePMO did not contain information on Key Performance Measures, Risks and Impediments,
and Resources Required. Furthermore, all of the inconsistencies between the various documents
appear to be attributable to timing (i.e., the date each of the documents was prepared and the
frequency with which ePMO was updated).
We understand that revised CAPs as of June 30, 2006, are due to the Department by July 12, 2006.
ICE represented that it would be submitting a revised CAP to the Department. These revised CAPs
are outside the scope of this performance audit. ICE further represented that the revisions would not
be considered significant but would be adding specificity to the existing data (i.e., tasks and
milestones) and revising expected completion dates for select milestones, as well as providing
information in the sections of the CAP that were not previously submitted for input into ePMO.
Standard operating procedures were issued for each of the identified four areas. In addition, within
the areas of Statement of Differences and Suspense, the tasks reflected as complete include the
reconciling and clearing of all FY 2005 transactions and FY 2006 transactions greater than 60 days
for both ICE and each of the Components.
ICE is scheduled to attend the Department's OCFO-sponsored CAP Workshop for Fund Balance
with Treasury on August 16,2006.
Accountability:
Refer to the corresponding section under Financial Management Oversight for a discussion of the
roles of personnel with ICE, the completion of resource templates, the responsibility for supporting
the progress made and the reporting of corrective action status via the FAP Dashboard.


Recommendations:
We recommend that ICE:
16. Ensure that revisions and updates to the FAP and supporting documentation are made to ICE'S
    CAPs maintained in ePMO. Since the CAPs maintained in ePMO are the basis for the
    Department-wide CAP and ePMO is the system of record for the Department for corrective
    actions, it is imperative that the CAP data in ePMO be current.
17. Within the area of Management Oversight, define the exact criteria which will be used to
    ascertain when the corrective action has been successfully completed, as well as the method for
    testing against such criteria as part of OMB A-123 implementation steps (i.e. tests of design and
    tests of operating effectiveness of internal controls). Additionally, integrate the CAPs with
    ICE's plan for OMB A-123 implementation and annual FMFIA assurance statement.
    Management's plan for validation of corrective actions should be closely integrated with their
    controls test work conducted to comply with OMB A-123.
18. Include completion of the GAO Evaluation Tool as a critical milestone in its Financial
    Reporting CAP.
19. Within the area of Workforce Strategy, define the success and validation criteria in conjunction
    with the development and implementation of the Workforce Transition Plan.
20. Enhance its understanding and working knowledge of ePMO to ensure that ICE's CAP data in
    ePMO is portraying an accurate picture. As previously stated, the CAPs maintained in ePMO
    are the basis for the Department-wide CAP and ePMO is the system of record for the
    Department for corrective actions.
21. Reduce the volume of 'free-form' general journal entries that are recurring in nature. This would
    reduce the need for the entry to be made as a 'free-form' general journal entry which in turn
    would reduce the risk of an inappropriate entry being recorded.
22. Develop a mechanism to track and monitor the volume and type of 'warning' errors received
    upon submission of the monthly financial data into TIER. This would effectively limit the
    number of 'warning' errors received by being proactive in researching and resolving the
    underlying cause.
                                                                        U.S. Departn~cstof tlomelitnd
                                                                        Security
                                                                        Washington, DC 20528




                                                          ifCA          Homeland
                                                          %
                                     SEP    7 2006
                                                           "P
                                                              -.C?5~
                                                                  s€'   Security 

MEMORANDUM FOR:              Richard L. Skinner, Inspector General

FROM:                        David L. Norquist, Chief Financial 0 f f i c W

SUBJECT:                     Audit of DHS' Corrective Action Plan Process for Financial
                             Reporting - Report No. 2


Thank you for the opportunity to comment upon the Audit of DHS' Corrective Action Plan
Process for Financial Reporting - Report No. 2. We concur with the report's recommendations
and are pleased to report that actions are already undemay to address the issues raised in the
report. The report highlights valuable best practices and lessons learned. For example, ICE is
improving the internal control environment through establishing a strong "tone at the top" and
Coast Guard is piloting an automated corrective action planning tracking system for managing
Department-wide corrective action plans (CAPs). Most significantly, throughout the summer the
Department sponsored a series of CAP workshops designed to help identify crosscutting root
causes of internal control deficiencies focusing on the areas of people, policies, processes, and
systems. The workshops set clear expectations for integrating test of design and operating
effectiveness requirements of DHS policy and OMB Circular No. A-123, Management's
Responsibility for Internal Controls into our corrective action plans. The workshops were well
attended and supported by all DHS Components and we are developing stronger corrective
actioils as a result.

After the CAPs are updated, the next step will be the implementation of the DHS Internal
Controls over Financial Reporting (ICOFR) Playbook. The ICOFR Playbook will act as a
single, comprehensive, and integrated plan to organize and focus corrective action and
assessment efforts across the Department.

We appreciate the positive comments about our developing corrective action planning process.
In closing, we look forward to continue our partnership in implementing corrective actions and
most importantly the DHS Financial Accountability Act.
Report Distribution




      Department of Homeland Securitv

      Secretary
      Deputy Secretary
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Executive Secretary
      Chief Privacy Officer
      Under Secretary for Management
      Assistant Secretary for Policy
      Assistant Secretary for Public Affairs
      Assistant Secretary for Legislative and Intergovernmental Affairs
      Chief Financial Officer
      Chief Information Officer
      DHS GAOtOIG Audit Liaison

      Office of Management and Budget
      Chief, Homeland Security Branch
      DHS OIG Budget Examiner

      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG 
Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector GeneraljMAIL
STOP 2600, Attention. Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov The OIG seeks to protect the identity of each writer
and caller.
